                        DEPARTMENT OF
                        DEPARTMENT OF HEALTH
                                      HEALTH AND HUMAN SERVICES
                                             AND HUMAN  SERVICES


                  OFFICE OF
                  OFFICE OF INSPECTOR
                            INSPECTOR GENERAL
                                      GENERAL
                                              WASHINGTON, DC
                                              WASHINGTON,  DC 20201
                                                               20201



                                               IIARO
                                               MAR   6 2013
                                                   0 62013
TO:
TO:                  Marilyn Tavenner
                     Marilyn  Tavenner
                     Acting  Administrator
                     Acting Administrator
                     Centers for
                     Centers  for Medicare
                                  Medicare & Medicaid Services
                                           & Medicaid Services

                       ~'(/J~;C
                             /S/
FROM:
FROM:                StuartWriglt
                     Stuart  Wrigh£ .
                     Deputy    Inspector General
                     Deputy Inspector    General
                        for Evaluation
                       for  Evaluationand
                                       and Inspections
                                            Inspections


SUBJECT:
SUBJECT:             Early Alert
                     Early AlertMemorandum
                                 MemorandumReport:
                                                 Report: Co-Located
                                                         Co-LocatedLong-Term
                                                                     Long-Term Care
                                                                                Care Hospitals
                                                                                     Hospitals
                     Remain Unidentified,
                     Remain   Unidentified, Resulting
                                            Resultingin
                                                      inPotential
                                                         PotentialOverpayments,
                                                                  Overpayments,
                     OEI-04-12-00491
                     OEI-04-12-00491


 This early
This   earlyalert
             alert memorandum
                    memorandum report reportprovides
                                             provides information
                                                        information related
                                                                     related toto our
                                                                                   ourongoing
                                                                                       ongoing study
                                                                                                  study
 Medicare Payments/or
Medicare    Payments for Interrupted
                              InterruptedStays
                                            Stays in
                                                   inLong-Term
                                                      Long-Term Care
                                                                  Care Hospitals
                                                                         Hospitals
 (OEI-04-12-00490)       and  alerts  the Centers   for Medicare  &  Medicaid
(OEI-04-12-00490) and alerts the Centers for Medicare & Medicaid Services          Services (CMS)
                                                                                             (CMS) of of
 vulnerabilities resulting
vulnerabilities    resulting from
                              from inaccurate
                                     inaccurate information
                                                 informationonon the
                                                                  the co-located
                                                                       co-located status
                                                                                     status of
                                                                                             oflong-term
                                                                                                long-term
                              1
 care hospitals   (L TCHs
care hospitals (L TCHs). 1 ).

 SUMMARY ..
SUMMARY.,
 Not all
Not   all co-located
           co-located LTCHs
                        LTCHs (i.e.,
                                (i.e., LTCHs
                                       LTCHs located
                                               located inin the
                                                             the same
                                                                  samebuilding
                                                                         buildingor oron
                                                                                       onthe
                                                                                           the same
                                                                                                 same
 campus     as  another hospital-level  provider  or skilled   nursing    facility) have
campus as another hospital-level provider or skilled nursing facility) have notified their notified  their
 respective Medicare
respective     MedicareAdministrative
                         Administrative Contractors
                                            Contractors ororfiscal
                                                              fiscal intermediaries
                                                                      intermediaries (i.e.,
                                                                                        (i.e., claims
                                                                                                claims
 processing     contractors) of their  co-located status.    This  lack  of  information
processing contractors) of their co-located status. This lack of information on co-located  on   co-located
 status  can   cause Medicare   to overpay   for services    provided   in  these
status can cause Medicare to overpay for services provided in these facilities.    facilities.

 Co-locatedLTCHs
Co-located   LTCHs mustmust notify
                              notifytheir
                                     their claims
                                            claims processing
                                                    processing contractors
                                                                  contractors about
                                                                               aboutthe
                                                                                     the providers
                                                                                          providers
 withwhich
with  whichthey
             they are
                    are co-located
                         co-locatedand
                                     and whether
                                           whetherthere
                                                    there are
                                                           are any
                                                                any changes
                                                                     changes in
                                                                              inco-located   status. 2
                                                                                 co-located status?
 However, preliminary
However,    preliminary analysis
                           analysis for
                                     for our
                                          ourongoing
                                              ongoing study
                                                       study indicates
                                                                indicatesthat
                                                                          thatmany
                                                                               many co-located
                                                                                      co-located
 LTCHs are
LTCHs    arenot
             not notifying
                   notifying their
                              theirclaims
                                    claimsprocessing
                                             processingcontractors.
                                                         contractors. Specifically,
                                                                         Specifically, nearly
                                                                                        nearlyhalf
                                                                                               halfofof
 the 211 LTCHs     whose    co-located   status we have   determined    have  not
the 211 LTCHs whose co-located status we have determined have not reported this   reported  this
 informationtoto claims
information       claimsprocessing
                          processingcontractors.
                                        contractors. As
                                                      As aaresult,
                                                             result, CMS
                                                                     CMS does
                                                                           does not
                                                                                 nothave
                                                                                     have accurate
                                                                                           accurate
 1
I
   DepartmentofofHealth
  Department         Healthand
                            andHuman
                                 Human Services
                                           Services(HRS),
                                                     (HHS),Office
                                                              OfficeofofInspector
                                                                         InspectorGeneral
                                                                                   General (OIG),
                                                                                             (OIG), Work
                                                                                                     WorkPlan.   Plan,Fiscal
                                                                                                                        Fiscal
 Year   2013.   Available  online  at  ~[o..iz:   hhs. gov/reports-and-publications/archives/wor.     ! 5l2.)
 Year 2013. Available online at b.!tm.;!(Q.i&hhs.gov/reports-and-publications/archives/wor.!5Q)~n/20 13/Work- ~n/2013   /Work­
 Pian-2013.pdf.
Plan-20   13 .pdf. Our
                    Ourstudy
                         studywill    determinethe
                               will determine    theextent
                                                     extenttoto which
                                                                whichMedicare
                                                                        Medicaremade
                                                                                  made improper
                                                                                         improperpayments
                                                                                                    payments for    for
 interrupted   stays in L TCHs   and   the extent to which   L TCHs   readmitted  patients directly after
interrupted stays in LTCHs and the extent to which LTCHs readmitted patients directly after the fixed-day      the fixed-day
 reriod,resulting
reriod,   resultingininnew
                        newadmissions
                             admissionsrather
                                           ratherthan
                                                  than interrupted
                                                        interruptedstays
                                                                     stays..
   42 CFR   §  412.532(i).   See also   CMS,   Medicare    Claims  Processing
. 42 CFR § 412.532(i). See also CMS, Medicare Claims Processing Manual,                   Pub. 100-04,
                                                                               Manual, Pub.     100-04,ch.  ch. 33
§§ 150.9.1.4.
    150.9.1.4.
Page 2 – Marilyn Tavenner


information on the co-located status of LTCHs, which prevents it from applying two
payment policies that would lower Medicare payments if co-located LTCHs exceeded
certain readmission thresholds. Failure to appropriately apply these payment polices
could result in Medicare overpaying for services provided to beneficiaries in LTCHs.

We are providing this memorandum at this time so that CMS may begin addressing the
issue of inaccurate co-location information to avoid overpayments to co-located LTCHs.
After completing our ongoing study entitled Medicare Payments for Interrupted Stays in
Long-Term Care Hospitals (OEI-04-12-00490), we will provide CMS with additional
information on this subject and will make recommendations regarding the issues raised in
this memorandum.

BACKGROUND

LTCHs generally treat patients who have been discharged from acute care hospitals but
have complex medical conditions that require prolonged hospital-level care. LTCH
services include comprehensive rehabilitation, respiratory therapy, head trauma
treatment, and pain management. To qualify as an LTCH for Medicare payment, a
facility must meet Medicare conditions of participation for acute care hospitals and have
an average length of stay greater than 25 days for its Medicare beneficiaries. 3 In 2011,
Medicare paid $5.3 billion for services furnished by 445 LTCHs. 4

Reporting Requirements of Co-located LTCHs
An LTCH can be freestanding or co-located with another hospital-level provider (e.g., an
acute care hospital) or a skilled nursing facility. A co-located LTCH is located in the
same building as another provider or in a separate building on the same campus as
another provider. 5 An LTCH that is co-located specifically with an acute care hospital is
called a hospital-within-a-hospital. 6 An LTCH may also have a satellite facility, which
operates as part of the LTCH but in a separate location. 7 A satellite facility can also be
co-located with a hospital-level provider or a skilled nursing facility.

A co-located LTCH must notify its claims processing contractor about the provider(s)
with which it is co-located within 60 days of its first cost-reporting period. 8 Additionally,
an LTCH must report a change in co-located status within 60 days of the change. The


3
  Social Security Act § 1861(ccc), 42 U.S.C. 1395x(ccc). 42 CFR pt. 482 defines the conditions of
participation for hospitals. 42 CFR pt. 489 specifies the terms of provider agreement for hospitals.
42 CFR § 412.23(e)(2) defines LTCHs as having an average length of stay greater than 25 days for
Medicare beneficiaries.
4
  OIG analysis of 2011 National Claims History Part A Standard Analytic File.
5
   “Campus” means the physical area immediately adjacent to the provider’s main buildings; other areas
and structures that are not strictly contiguous to the main buildings but are located within 250 yards of the
main buildings; and any other areas that the CMS regional office determines (on an individual-case basis)
to be part of the provider’s campus. 42 CFR § 413.65(a)(2).
6
  42 CFR § 412.22(e).
7
  42 CFR § 412.22(h).
8
  42 CFR § 412.532(i). See also: CMS, Medicare Claims Processing Manual, Pub. 100-04, ch. 3
§ 150.9.1.4.


Co-Located LTCHs Remain Unidentified, Resulting in Potential Overpayments (OEI-04-12-0491)
Page 3 – Marilyn Tavenner


claims processing contractor notifies the appropriate CMS regional office of an LTCH’s
co-located status.

Medicare Payment Policies for Co-located Providers
Co-location of LTCHs creates incentives for co-located providers to make decisions
about admitting and discharging patients on the basis of maximizing Medicare payments,
rather than providing effective and efficient care. 9 As a result, CMS developed two
payment policies that apply to co-located LTCHs.

The first payment policy, known as the 25-percent threshold rule, was established in
fiscal year 2005 and applies only to LTCH hospitals-within-hospitals and satellites. 10
The 25-percent threshold rule limits the proportion of patients that an LTCH admits from
its host hospital during the LTCH’s cost-reporting period. 11 Medicare payments for stays
that occur after an LTCH exceeds this threshold are subject to adjustments that reduce the
amounts the LTCH receives. For such stays, Medicare will pay the LTCH the lesser of
(1) the LTCH prospective payment system (PPS) amount, or (2) an amount equivalent to
the Inpatient PPS rate for patients admitted from the host hospital. 12, 13 That is, an
LTCH’s payments for certain stays that occur after exceeding the admission threshold
should be reduced to a lower Medicare payment rate.

Additionally, a separate payment policy applies specifically to interrupted stays that
occur between co-located providers. An interrupted stay is when a patient is discharged
from an LTCH for treatment and services that are not available at the LTCH and returns
after a specific number of days to the same LTCH for further medical treatment. If the
patient returns to the same LTCH after a certain defined fixed-day period, CMS considers
it a new admission rather than an interrupted stay. As a result, the LTCH will receive
two Medicare payments—one payment for the first stay and a separate payment for the
subsequent stay. Had the patient been readmitted during the fixed-day period, the LTCH
would have received only one Medicare payment. If the number of discharges and
readmissions between a co-located LTCH and the provider with which it is co-located
9
  Testimony of Herb Kuhn, former Director of the Center for Medicare Management at CMS, before the
House Committee on Ways and Means, Subcommittee on Health, U.S. House of Representatives,
110th Cong., March 15, 2006. Accessed at http://www.hhs.gov/asl/testify/t060315a.html on January 4,
2013.
10
   42 CFR § 412.534. In July 2007, the 25-percent threshold rule was to be expanded to almost all LTCHs
(i.e., freestanding LTCHs and those co-located with providers other than acute care hospitals) and phased
in over 3 years; however, legislation and CMS have delayed the expansion of this policy until fiscal
year 2013. Additionally, less stringent thresholds apply to hospital-within-hospitals and satellites in rural
areas or in urban areas where an LTCH is the sole LTCH or where there is a dominant acute care
hospital—i.e., a hospital with one-fourth or more of the acute care cases for the metropolitan statistical
area.
11
   Ibid. See also: CMS, Medicare Claims Processing Manual, Pub. 100-04, ch. 3 § 150.9.1.4.
12
   Medicare payments under the LTCH PPS are based on the same diagnosis-related group system (i.e.,
rates are set prospectively based on the patient’s diagnosis and the severity of the patient’s medical
condition) as the Inpatient PPS, but payment weights associated with the LTCH patient classifications are
calculated based on generally higher treatment costs at LTCHs.
13
   Patients from the host hospital who are considered to be outliers under the Inpatient PPS before their
transfer to the hospital-within-a-hospital do not count toward the threshold and continue to be paid for at
the LTCH PPS rate even if the threshold has been reached.


Co-Located LTCHs Remain Unidentified, Resulting in Potential Overpayments (OEI-04-12-0491)
Page 4 – Marilyn Tavenner


exceeds 5 percent of the LTCH’s total discharges during a cost reporting period, all such
discharges and readmissions are to be paid as one discharge, regardless of the time spent
at the intervening facility. 14

Related Work
In 2004, OIG found that 19 of 87 LTCH hospitals-within-hospitals exceeded the annual
5-percent threshold for readmissions from their host hospitals at least once during the
fiscal years ending in September 2000 through December 2002. 15 For that study, OIG
developed its own list of LTCHs that were co-located with acute care hospitals because
CMS data systems did not identify hospitals-within-hospitals. Additionally, OIG found
that CMS lacked a system to detect readmissions over the 5-percent threshold. LTCH
hospitals-within-hospitals currently operate under a modified readmission threshold,
which CMS has not established a program to enforce.

METHODOLOGY

As part of our ongoing study entitled Medicare Payments for Interrupted Stays in
Long-Term Care Hospitals (OEI-04-12-00490), we requested that all CMS claims
processing contractors provide data on the co-located status of LTCHs in their respective
provider service areas for calendar years 2010 and 2011. 16 We received responses from
all contractors, a 100-percent response rate. We reviewed claims processing contractors’
responses to determine how many LTCHs had notified them of their co-located status.

We are also mapping LTCHs’ geographic locations in relation to those of other providers
to independently identify co-located LTCHs. We analyzed claims data from CMS’s
National Claims History Part A Standard Analytic File to identify LTCHs that received
Medicare payment in 2011. We have completed this process for 47 percent (211 of 445)
of LTCHs. We compared our results to contractor responses to identify co-located
LTCHs that have not notified their claims processing contractors of their status.

This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

At Least 97 Co-located LTCHs Have Not Notified Their Claims Processing
Contractors of Their Status
Eight of fourteen CMS claims processing contractors provided information on
98 co-located LTCHs and the providers with which they are co-located. One large

14
   42 CFR § 412.532.
15
   OIG, Long-Term Care Hospitals-within-Hospitals, OEI-01-02-00630, July 2004. Prior to October 1,
2002, CMS paid LTCHs on a cost basis and imposed a payment limitation when an LTCH
hospital-within-a-hospital readmitted more than 5 percent of its discharges to its host hospital within the
LTCH’s fiscal year. This policy is no longer in effect and is different than the current 5-percent threshold
for interrupted stays in LTCHs. Compare 42 CFR § 413.40 (2000) with 42 CFR § 412.532(c) (2009).
16
   At the time of our data request, certain claims processing contractors changed and/or were consolidated;
however, our data are comprehensive and include all provider service areas.


Co-Located LTCHs Remain Unidentified, Resulting in Potential Overpayments (OEI-04-12-0491)
Page 5 – Marilyn Tavenner


hospital chain provided the co-located status of the majority (78 of 98) of LTCHs to
1 claims processing contractor. Additionally, five of these eight contractors did not
report that any LTCHs in their provider service areas were co-located with providers
other than hospitals (e.g., skilled nursing facilities or inpatient rehabilitation facilities).

Six contractors reported that no LTCHs in their provider service areas had notified them
of being co-located. Additionally, two of these six contractors stated that they do not
track LTCHs that are co-located. Although contractors are not required to actively track
LTCHs’ co-located status, LTCHs are required to notify contractors of their co-located
status and contractors are required to report this information to CMS regional offices.

Of the 211 LTCHs for which we have determined the co-located status, our preliminary
data analysis shows that 141 (or 67 percent) are co-located. 17 Only 44 of these
141 LTCHs had notified their claims processing contractor of their co-located status.
Consequently, at least 97 co-located LTCHs (46 percent of the 211 LTCHs) had not,
according to contractor responses, notified their respective claims processing contractors
of their co-located status. This inaccurate data on LTCHs’ co-located status could result
in overpayments if these LTCHs exceeded the readmission threshold for either payment
policy.

CONCLUSION

Not all co-located LTCHs have notified their respective claims processing contractors of
their co-located status. Specifically, nearly half of the 211 LTCHs whose co-located
status we have determined have not reported this information to contractors. This
prevents CMS from applying two payment policies specific to co-located providers and
thus could result in Medicare overpaying for LTCH services. Claims processing
contractors had information on 98 co-located LTCHs. Our preliminary analysis identifies
an additional 97 co-located LTCHs that have not notified their contractors of their status.

We are providing this information at this time so CMS may begin addressing the
inaccuracy of co-location information to avoid overpayments to co-located LTCHs.
CMS could have claims processing contractors provide educational materials to LTCHs
regarding this notification requirement. CMS or its contractors could also survey LTCHs
on a recurring basis to identify co-located LTCHs and changes in co-located status. We
will provide information to CMS on the 211 LTCHs whose co-located status we have
determined thus far. Upon completion of our ongoing study entitled Medicare Payments
for Interrupted Stays in Long-Term Care Hospitals (OEI-04-12-00490), we will provide
additional information on this subject and make recommendations to CMS regarding the
issues raised in this memorandum report.

This report is being issued directly in final form. If you have comments or questions
about this report, please provide them within 60 days. Please refer to report number
OEI-04-12-00491 in all correspondence.


17
     We have not yet identified the provider service areas in which these LTCHs are located.


Co-Located LTCHs Remain Unidentified, Resulting in Potential Overpayments (OEI-04-12-0491)
